OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S
IMPLEMENTATION OF THE
PRESIDENT’S EMERGENCY
PLAN FOR AIDS RELIEF
AUDIT REPORT NO. 9-000-05-009-P
SEPTEMBER 30, 2005




WASHINGTON, DC
Office of Inspector General


      September 30, 2005

      MEMORANDUM

      TO:                      GH/HIV-AIDS Director, Constance Carrino

      FROM:                    IG/A/PA Director, Steven H. Bernstein /s/

      SUBJECT:                 Audit of USAID’s Implementation of the President’s
                               Emergency Plan for AIDS Relief (Report No. 9-000-05-009-P)

      This memorandum transmits our final report on the subject audit. In finalizing the report,
      we considered your comments on our draft report and have included your response as
      Appendix II.

      This report does not include any recommendations.

      I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ......................................................................................................... 1

Background ...................................................................................................................... 2

Audit Objectives .................................................................................................................. 3

Audit Findings ................................................................................................................... 4

How has USAID participated in the President’s
Emergency Plan for AIDS Relief activities? ....................................................................... 4

Did USAID partners’ HIV/AIDS activities progress as
expected towards planned outputs in their grants,
cooperative agreements and contracts? ............................................................................ 8

Are USAID’s HIV/AIDS activities contributing to the
U.S. Government’s overall Emergency Plan targets? ........................................................ 14

     Partners Should Develop Strategies
     For Sustainable Activities .............................................................................................. 17

     Funding for Nutrition Interventions
     Needs to Increase ....................................................................................................... 19

Evaluation of Management Comments ........................................................................ ...21

Appendix I – Scope and Methodology ......................................................................... …22

Appendix II – Management Comments ........................................................................ …24

Appendix III – Summary of Audit Recommendations by Audit Objective ................ …27

Appendix IV – Audit Recommendations by Mission Audited .................................... …29

Appendix V – Worldwide Audit Reports Issued .......................................................... …33
SUMMARY OF RESULTS
This worldwide audit, performed by the Office of Inspector General’s Performance Audits
Division, summarizes the results of six audits conducted at selected USAID missions in
Africa and the Caribbean. In addition to summarizing these results, this report
addresses USAID-wide issues identified during the course of these audits. (See
Appendix III for a summary of audit recommendations by audit objective, Appendix IV for
audit recommendations listed by mission audited, and Appendix V for a list of audit
reports issued.)

The objectives of this audit were to determine (1) how USAID participated in the
President’s Emergency Plan for AIDS Relief activities, (2) whether USAID partners’
HIV/AIDS activities progressed as expected towards planned outputs in their
agreements and contracts, and (3) whether USAID's HIV/AIDS activities contributed to
the overall U.S. Government's Emergency Plan targets. (See page 3.)

Based on the results of six audits conducted at selected missions, we concluded that
USAID had a principal role in the President’s Emergency Plan for AIDS Relief activities
for HIV/AIDS prevention and care, as well as either a principal or a major supporting role
for HIV/AIDS treatment; its partners were progressing as expected towards meeting
planned outputs in their agreements and contracts; and its HIV/AIDS activities were
contributing significantly to the overall U.S. Government’s Emergency Plan care and
treatment targets for fiscal year 2004. (See pages 4, 8, and 14.)

This report includes findings on sustainability and nutrition with no recommendations.
(See pages 17 and 19.) Management concurred with our findings. See page 21 for our
evaluation of management’s comments.

Management’s comments are included in their entirety in Appendix II.




                                                                                        1
BACKGROUND
Congress enacted legislation to fight HIV/AIDS internationally through the President’s
Emergency Plan for AIDS Relief (Emergency Plan). The $15 billion, 5-year program
provides $9 billion in new funding to speed up prevention, care and treatment services in
15 focus countries.1 The Emergency Plan also devotes $5 billion over five years to
bilateral programs in more than 100 countries and increases the U.S. Government
pledge to the Global Fund2 by $1 billion over five years. The fiscal year 2004 budget for
the Emergency Plan totaled $2.4 billion. Our audit covered USAID missions in Ethiopia,
Kenya, Rwanda, Uganda, Zambia and Haiti. These six missions had fiscal year 2004
funding levels totaling $179,371,724, or 54 percent of the total $331,918,461 funding for
the 15 focus countries.

The Emergency Plan is directed by the Department of State’s Office of the U.S. Global
AIDS Coordinator.3 To ensure program and policy coordination, the Office of the U.S.
Global AIDS Coordinator manages the activities of the U.S. Government agencies
responding to the pandemic. The Emergency Plan is implemented collaboratively by in-
country teams made up of staff from USAID, the Department of State, the Department of
Health and Human Services, and other agencies. The Bureau for Global Health has
general responsibility for USAID’s participation in the Emergency Plan.           More
specifically, the Director of Global Health’s Office of HIV/AIDS provides the technical
leadership for USAID’s HIV/AIDS programs.

The U.S. President and Congress have set aggressive goals for addressing the
worldwide HIV/AIDS pandemic. The worldwide goal over 5 years is to provide treatment
to 2 million HIV-infected people, prevent 7 million HIV infections and provide care to 10
million people infected by HIV/AIDS, including patients and orphans. The treatment and
care goals are to be met by 2008, and the prevention goal is to be met by 2010. The
Department of State’s Office of the U.S. Global AIDS Coordinator—which coordinates
the U.S. Government’s fight against HIV/AIDS internationally—divided these Emergency
Plan targets among the 15 focus countries and allowed each country to determine its
own methodology for achieving its portion of the assigned targets by the end of five
years.




1
  Twelve countries in Africa (Botswana, Cote d’Ivoire, Ethiopia, Kenya, Mozambique, Namibia, Nigeria,
Rwanda, South Africa, Tanzania, Uganda, and Zambia); Guyana and Haiti in the Caribbean; and Vietnam
in Asia.
2
    The Global Fund is a public-private partnership that raises money to fight AIDS, tuberculosis and malaria.
3
    The U.S. Global AIDS Coordinator reports directly to the Secretary of State.




                                                                                                            2
AUDIT OBJECTIVES
As part of the Office of Inspector General’s fiscal year 2005 annual audit plan, the
Performance Audits Division conducted this worldwide audit to answer the following
objectives:

•   How has USAID participated in the President’s Emergency Plan for AIDS Relief
    activities?

•   Did USAID partners’ HIV/AIDS activities progress as expected towards planned
    outputs in their grants, cooperative agreements and contracts?

•   Are USAID's HIV/AIDS activities contributing to the U.S. Government's overall
    Emergency Plan targets?

    Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                  3
AUDIT FINDINGS
How has USAID participated in the President’s Emergency Plan
for AIDS Relief activities?

The Emergency Plan work and targets are divided into three broad categories:
prevention, care and treatment. Four out of the six missions audited, USAID/Kenya,
USAID/Zambia, USAID/Haiti and USAID/Uganda had principal roles in prevention, care,
and treatment. The remaining two missions, USAID/Ethiopia and USAID/Rwanda, had
principal roles in prevention and care, and major supporting roles for treatment.

Prevention

The Department of State’s Office of the U.S. Global AIDS Coordinator published
guidance dividing the broad category of prevention into the following initiatives:

1. Prevention of Mother-to-Child Transmission,

2. Abstinence/Be Faithful,

3. Medical Transmission/Blood Safety,

4. Medical Transmission/Injection Safety, and

5. Other Prevention.

Of the USAID missions audited, USAID had a principal role in initiatives number 1, 2,
and 5, and a minor role in initiatives number 3 and 4.

Prevention of Mother-to-Child Transmission (PMTCT) – USAID and its partners
provided nevirapine,4 trained service providers, facilitated minor renovations in hospitals
and health care centers, purchased equipment, designed and implemented logistics
systems for PMTCT commodities, and produced mass media campaigns concerning
PMTCT. Pregnant women who tested positive for HIV/AIDS (refer to the Voluntary
Counseling and Testing section on page 6) were provided counseling in how to reduce
the risk of spreading the virus. Nevirapine has served as an important incentive for
women—who otherwise would see little to no benefit in knowing their HIV/AIDS status—
to get tested.5



4
  Nevirapine is a Food and Drug Administration-approved drug that significantly reduces the risk of
transmission of the human immunodeficiency (HIV) virus from mother to child.
5
 If the mother tests HIV-positive, the health facility will give nevirapine to the mother at the onset of labor
and to the child soon after birth.




                                                                                                             4
Abstinence/Be Faithful – The goal of abstinence and faithfulness programs is to avoid
new HIV infections by reducing high-risk behavior. USAID’s prevention programming is
based on the “ABC” model, where the “A” stands for abstinence, the “B” for “be faithful,”
and the “C” for condoms. The Emergency Plan legislation requires that one-third of
prevention funding be allocated to abstinence programs.

USAID-funded youth activities related to behavior change, delayed sexual debut, and
sustained abstinence. These activities included mass media campaigns, printing and
distributing educational comic books, and the training of peer group educators, teachers
and imams.6 Other prevention activities included outreach efforts to farmers, high-risk
worksites, and HIV/AIDS education during religious gatherings.

Medical Transmission/Blood Safety – Two out of the six missions audited had blood
safety programs. USAID/Uganda reported supporting the national program to improve
blood safety by strengthening safety precautions in 30 hospitals and 44 lower-level
health centers. USAID/Kenya’s program was very small and was not audited.7

Medical Transmission/Injection Safety – Two out of the six missions audited had
injection safety programs. USAID/Uganda designed and implemented a three-element
approach that addressed behavior change—targeting patients and healthcare workers to
reduce injection overuse and develop healthy habits—and provided sufficient quantities
of appropriate injection equipment and related supplies. USAID/Zambia funded a
partner to develop national infection-prevention guidelines and training materials to
supplement the guidelines. The organization also trained health care workers.

Other Prevention – USAID also has specific initiatives directed at high-risk groups.
High-risk groups are generally comprised of low-income women, recently released
prisoners, commercial sex workers, discordant couples (couples where one person is
HIV positive and the other is HIV negative), and the military. These high-risk groups are
targeted through prevention and education campaigns including instruction on correct
condom use. Some partners are also establishing accessible condom outlets in bars,
hotels, and truck parks.

Care

The Office of the U.S. Global AIDS Coordinator divided the broad category of care into
the following initiatives:

•     Voluntary counseling and testing

•     Palliative care

•     Care for orphans and vulnerable children


6
    An imam is a prayer leader of a mosque.
7
 The USAID/Kenya funding for blood safety was about a third of one percent of its fiscal year 2004
Emergency Plan funding.




                                                                                                5
Voluntary Counseling and Testing (VCT) – VCT is a point of entry for HIV/AIDS
prevention, care, and treatment programming. Increasing the number of people who
know their HIV status should promote behavior change and contribute to progress
toward HIV prevention targets. VCT services are located in various outlets, including
government health facilities, stand-alone sites operated by partners and smaller
community-based organizations, and mobile VCT units. VCT funds are used to provide
counseling and testing, train health workers, conduct mobile VCT sites, renovate VCT
clinics, and quality assurance.

Palliative Care – Palliative care focuses on improving the quality of life of patients with
life-threatening illnesses. The Emergency Plan defines palliative care as the full range
of care services from the time of HIV diagnosis until death. These services include
routine monitoring of diseases progression and prophylaxis; treatment of opportunistic
infections, tuberculosis and other AIDS-related diseases; symptom management; social
and emotional support; and compassionate end-of-life care. USAID’s partners train
community and family members on health care issues, provide basic health care kits to
the HIV-positive patients, review food and nutrition implications for antiretroviral
treatment, and provide psychosocial support.

Care for Orphans and Vulnerable Children - As a result of the high numbers of
parents dying from HIV/AIDS, there are approximately 3.8 million children orphaned by
HIV/AIDS in the six countries covered by the audit. These children need financial
support to pay for food, housing, legal aid, and training and support for caregivers.
USAID activities identify vulnerable children and households, establish and strengthen
community-based day care centers, train caregivers, provide psychosocial counseling
and educational assistance, and train mature orphans in income-generating activities.

In Ethiopia, the auditors visited the home of one HIV/AIDS orphan and saw the cow she
was encouraged to purchase through this program. The cow had recently given birth to
a calf. The cow should provide a regular and sustained source of income through the
production and sale of milk.




                                                                                         6
          Photograph taken November 16, 2004 by an Office of Inspector General auditor of
          a child orphaned by AIDS. The cow was provided by a government program to
          provide a means of sustainable support.

Treatment

Treatment reporting categories were divided into (1) antiretroviral (ARV) drugs, (2) ARV
services, and (3) laboratory infrastructure.

Antiretroviral Drugs – The type of entity that procured and distributed the ARV drugs
and essential commodities varied among the audited countries—from a host government
entity, to a faith-based organization, to a contractor. ARV drugs and commodities were
distributed to health care facilities, including faith-based hospitals, private sector
providers, and public sector facilities.

Antiretroviral Services – Distribution of the ARV drugs involves several steps that
include storage, distribution, delivery and tracking. In two cases, USAID provided
assistance to host government procurement agencies in areas such as improving
commodity forecasting, procurement procedures, storage and distribution, quality
assurance and internal quality control systems, accounting and logistics management
information systems, and physical infrastructure and information systems.

Laboratory Infrastructure – In five of the six countries audited, USAID undertook
various activities to improve the infrastructure of laboratories, such as assessing,
refurbishing and equipping laboratories, retraining staff and providing some
consumables, purchasing equipment and commodities, and providing stock
management software.




                                                                                            7
Did USAID partners’ HIV/AIDS activities progress as expected
towards planned outputs in their grants, cooperative
agreements and contracts?
For five of six missions audited, USAID partners’ HIV/AIDS activities were progressing
as expected, or better than expected, towards their planned outputs. However, in the
case of USAID/Haiti, a significant percentage of its partner activities were not meeting
outputs or could not be evaluated for progress. Furthermore, five of six mission-level
audit reports included audit findings related to this objective. Specifically,

•     USAID/Ethiopia’s activities were progressing as expected towards meeting planned
      outputs contained in agreements and contracts with the Mission’s partners.

•     USAID/Rwanda’s activities were progressing as expected towards meeting planned
      outputs in their cooperative agreements.8 However, the audit noted findings related
      to this objective concerning the coordination of partner efforts and a lack of
      documentation for site visits.

•     USAID/Kenya’s activities were progressing as expected towards meeting planned
      outputs contained in agreements and contracts with the Mission’s partners.
      However, the audit report included three findings related to monitoring partner
      efforts, coordination among partners, and shortages of HIV test kits.

•     USAID/Zambia’s activities were progressing as expected towards planned outputs.
      However, the audit mentioned two findings related to the monitoring of partner
      efforts, and the accuracy and adequacy of documentation for reported results.

•     Approximately 68 percent of USAID/Haiti’s activities that could be evaluated were
      meeting or exceeding outputs, while 32 percent were not meeting outputs. About 44
      percent of the activities could not be evaluated for progress because planned outputs
      were not established. Additionally, the audit had findings related to implementation
      of a drug management tracking system, a shortage of antiretroviral drugs, the lack of
      clearly defined outputs, the quality of progress reports, the effectiveness of the
      Mission’s monitoring and evaluation, the lack of accountability of funds, contract
      ceiling limitations, and staffing and transportation constraints.9

•     USAID/Uganda’s activities were progressing at a rate better than originally expected
      towards meeting planned outputs contained in agreements and contracts with the
      Mission’s partners. However, the audit noted three findings related to data quality,
      shortages of HIV/AIDS test kits, and outdated performance targets.
8
    All USAID/Rwanda partners were under cooperative agreements.
9
  The security and working environment in Haiti during 2004 and 2005 included chronic instability and
violence, which had a major impact on the ability of the U.S. Government team and its partners to
accomplish even basic tasks. Several USAID staff have been attacked or car-jacked. Because of the
insecurity, American staff from USAID and CDC was evacuated from Haiti for months at a time in both
2004 and 2005. USAID/Haiti stated that these conditions were extremely disruptive to program design and
management, and severely hampered the ability of the team to effectively manage the ongoing program.




                                                                                                     8
The following sections summarize selected activities that illustrate how USAID HIV/AIDS
activities were progressing as, or better than, expected.

Prevention

USAID partners reported significant outputs in providing prevention under the categories
of (1) Prevention of Mother-to-Child Transmission, (2) Abstinence/Be Faithful, and (3)
Other Prevention Initiatives.

Prevention of Mother-to-Child Transmission (PMTCT) – As of January 31, 2005,
Family Health International (FHI), a USAID/Rwanda partner, had established 21 PMTCT
service outlets, provided services to 7,965 women, and provided antiretroviral
prophylaxis for PMTCT to 80 percent of HIV-positive mothers-to-be. As of December
31, 2004, the Elizabeth Glaser Pediatric Aids Foundation, another USAID/Rwanda
partner, had provided prenatal care and HIV counseling to 15,030 women and provided
ARV prophylaxis to 1,728 mothers-to-be. All these accomplishments were beyond the
intended outputs of each of the above partners.

In Haiti, Management Sciences for Health (MSH) reported that it trained 1,692 traditional
birth attendants in PMTCT principles, exceeding its goal of 1,500; it developed
management guidelines and procedures for PMTCT and voluntary counseling and
testing as planned; and it trained 593 institution-based network providers of PMTCT
services, exceeding its goal of 500.

Two PMTCT USAID/Kenya partners, FHI and AMKENI10 (which means “awakening” in
KiSwahili), reported problems in the receipt of nevirapine and HIV test kits. FHI's staff
reported that progress towards planned PMTCT outputs was initially limited due to the
lack of nevirapine and HIV test kits, both of which were supposed to be supplied by the
Kenyan government. FHI overcame this obstacle by procuring these items through a
private company and reported that it exceeded its planned outputs.

Abstinence/Be Faithful – In Rwanda, FHI has met its output goal of supporting nine
premarital couple counseling programs through Catholic Churches nationwide, 91
pastoral agents were trained to provide HIV education, and a total of six youth peer
education programs were also supported. The audit team visited one of these youth
peer education programs in Kabgayi Diocese in Gitarama province. The program is
focused on Abstinence and Behavioral Change Communication (Change
Communication), which is aimed at reducing young people’s risk of HIV and sexually
transmitted diseases. The project focused on two categories of youth: out-of-school
rural youth between the ages of 15 and 25 and in-school youth at school and on
vacation. The Diocese invites parents, mayors, community leaders and parish
representatives from Gitarama Province to a community meeting to inform everyone
about the HIV/AIDS epidemic and asks for their support and collaboration on the
Change Communication project.

10
  AMKENI is a Kenyan umbrella organization involved in family planning, reproductive health, and child
survival throughout Kenya, and is managed by EngenderHealth, an international nonprofit organization
based in New York City.




                                                                                                    9
In Haiti, MSH reported reaching 127,500 youths in its abstinence/be faithful campaigns,
more than double the planned level of 60,000. It also achieved its goal of reaching at
least 1,500 people with behavior change messages through peer counselors. Johns
Hopkins University developed two media campaigns that reached 115,000 adolescents
and young people. Johns Hopkins also conducted a community-outreach program on
abstinence and being faithful reaching 15,000 youths. However, the workplan did not
include specific planned outputs for these activities.

Other Prevention – In Zambia, three partner consortiums are working in prevention
using such means as condom social marketing, behavior change, and community
mobilization. AIDSMark, a partner consortium, is working towards increasing condom
social marketing efforts in provinces where prevalence rates are higher than national
averages. As of September 30, 2004, AIDSMark reached 206,659 individuals through
community outreach of HIV/AIDS prevention programs not focused on abstinence and/or
being faithful. Based on the individuals reached as of September 2004, the audit
determined that the output would be met by March 31, 2005, as planned.

Care

USAID’s partners were progressing as, or better than, expected towards meeting
planned care outputs in their agreements. USAID partners reported significant outputs
in providing care under all U.S. Government categories of (1) voluntary testing and
counseling (VCT), (2) palliative care, and (3) care for orphans and vulnerable children.
While USAID’s partners are, in general, making good progress towards achieving their
planned outputs for care, the provisioning of HIV test kits was problematic in Kenya and
Uganda.

Voluntary Counseling and Testing – Four USAID/Zambia partner consortiums are
working in the area of counseling and testing through strengthening and increasing
community mobilization and communication for Voluntary Counseling and Testing (VCT)
and increasing access to VCT services. A VCT center in Kitwe is being implemented by
AIDSMark. On average, 15 to 20 people are tested per day at the center, with
approximately 30 percent of the females and 19 percent of the males testing positive.
AIDSMark had a planned output of counseling and testing 12,600 individuals; the actual
number of individuals counseled and tested was 9,200 as of September 30, 2004. The
audit determined that the output would be met by March 31, 2005. In Uganda, the HIV/
AIDS Integrated Model program run by John Snow, Inc reported 105,409 individuals
receiving VCT, compared to a planned output of 60,000.

A USAID/Kenya partner, AMKENI, reported problems in receiving supplies of HIV test
kits and other commodities. The auditors visited the health center in Chwele supported
by AMKENI and were also told of the HIV test kit shortages. The audit recommended
that USAID/Kenya develop and implement a new system for procuring and distributing
HIV test kits. Additionally, in Uganda, some service providers were not able to test all
new prenatal clients as a result of unforeseen disruptions in the supply of HIV test kits.
The audit recommended that USAID/Uganda develop a plan to provide implementing
partners with reliable sources of HIV test kits in the event of unexpected disruptions in
the supply chain.




                                                                                       10
Palliative care – With the help of four partner consortiums, USAID/Zambia reported
providing 31,016 individuals with HIV-related palliative care, progressing towards the
planned output of 70,800 persons. One partner consortium, FHI, had a planned output
of providing 3,500 individuals with palliative care, and as of September 2004, had
provided 2,705 individuals with such care. Given the time that remained towards meeting
the target, the audit determined that the planned output would be met. Another
USAID/Zambia partner consortium was the Policy Project, which had a planned output of
providing 8,600 individuals with general HIV-related palliative care. As of September
2004, they had provided 8,420 individuals with palliative care, and were on track to meet
the goal by March 31, 2005.

Indiana University, through its Academic Model for the Prevention and Treatment for
HIV/AIDS activity, supports the HIV section of the Moi Teaching and Referral Hospital,
one of the Kenyan hospitals with treatment centers for HIV patients. The hospital also
provides HIV treatment training for Kenyan medical students who will provide HIV care in
the latter years of the Emergency Plan, contributing to the sustainability of HIV efforts in
Kenya. The audit team visited the HIV section of the hospital, which provides basic care
to HIV-infected individuals, where the audit team saw a female patient being treated for
Kaposi’s sarcoma, a skin cancer common in people with HIV/AIDS. The auditors also
visited a “demo” farm in Mosoriot that serves as an “economic empowerment” activity for
HIV patients. On this farm, HIV-infected individuals are taught small-scale agriculture,
usage of compost, preparation of milk and cream, and condiment growing and usage,
among other things. Nearby, the audit team visited a larger farm that had only been
purchased about a month before our visit and will become a large-scale “production”
farm. The Emergency Plan paid for the start-up costs of the two farms,11 which are
managed by Indiana University.

Care for Orphans and Vulnerable Children – Catholic Relief Services (CRS), a
USAID/Rwanda partner, had met its target by providing care and support for 4,800
orphans and vulnerable children. The audit team visited a Catholic Church school in
Busasamana, Rwanda, that was supported by CRS and were greeted by approximately
8,000 orphans. Some of them were wearing the uniforms provided to them through the
Emergency Plan funds, as part of a care package.




11
   The land for the “demo” farm was donated by a local high school. The land for the “production” farm is
owned by a British farmer who leases it to the Indiana University program for a nominal yearly fee. The
farmer also works for the Indiana University program.




                                                                                                      11
                Photograph taken in February 2005 by an auditor of orphans and vulnerable
                children, in Busasamana, Rwanda, wearing uniforms funded through the
                Emergency Plan.


Treatment

USAID’s partners were progressing as, or better than, expected towards meeting
planned treatment outputs in their agreements. USAID partners reported significant
outputs in providing care under all U.S. Government categories of (1) antiretroviral
(ARV) drugs, (2) ARV services, and (3) laboratory infrastructure.

Antiretroviral drugs – Antiretroviral drug procurement was on track. For example, in
Kenya, the Mission for Essential Drugs and Supplies, the major drug purchaser for all
U.S. Government agencies in Kenya, experienced delays due to an unexpected import
tax imposed in January 2005. However, in April 2005, USAID/Kenya received a waiver
from the Government of Kenya allowing its partners to procure medical supplies without
paying the import tax.12 As a result, Mission for Essential Drugs and Supplies expected
to have 100 percent of the drugs for fiscal year 2004 in its warehouse by the end of April
2005, ahead of the USAID/Kenya’s May 20, 200513 Emergency Plan deadline. In
Ethiopia, drug deliveries were expected to be received on time—some on December
2004 and the rest by February or March 2005.



12
     In May 2005, Kenya temporarily suspended its 10 percent tax on drugs imported into the region.
13
  Kenya’s Emergency Plan year 2004 ended May 20, 2005. The 2004 Emergency Plan year generally
ended March 31, 2005. However, focus countries were given 12 months to spend their funds from the date
each Country Operational Plan was approved. Kenya’s plan was approved on May 21, 2004.




                                                                                                      12
Antiretroviral Services – The auditors visited St. Mary’s Hospital in Western Province,
Kenya, which had an antiretroviral program through FHl. The hospital has two doctors,
including one shared with another hospital, and two medical assistants. The Emergency
Plan project manager (a doctor) told us that they had enough physicians to handle the
current level of 76 antiretroviral patients, but when the number of patients increases,
they will have a doctor shortage. All the 76 patients tested HIV-positive, but none were
subsequently tested at the hospital to establish T-cell count baselines,14 as the hospital
did not have the lab equipment to perform the tests. To obtain T-cell count baselines,
the patients were referred to a larger hospital about 125 miles away. Of the 76 patients,
most were not periodically monitored for T-cell counts, because the other hospital was
too far away to make regular testing practical. In these cases, patients were placed on
antiretroviral drugs based on symptoms, which the doctor indicated was not a good
practice. The hospital also provides nutritional information to its patients receiving
antiretroviral drugs.

USAID/Haiti’s contractor Rational Pharmaceutical Management Plus (RPM Plus)
developed a software program to monitor and track antiretroviral drug usage and stock
levels. However, it did not implement the software program in centers throughout Haiti,
as set forth in the Country Operational Plan. As of the date of fieldwork, the software
had only been installed at four sites. The contractor procured, warehoused, and
delivered antiretroviral drugs to clinical sites. At one site visited where the software had
been installed, the software was not generating accurate drug counts or accurate
numbers of patients under treatment. The audit team recommended that USAID/Haiti
(a) make a determination as to whether to implement the drug management software,
and (b) if it decides to implement the software, set a schedule for its implementation and
a plan for providing support to the software users.

Laboratory Infrastructure – USAID partners have worked to improve the laboratory
infrastructure of the Emergency Plan countries. For example, in Ethiopia, RPM Plus
worked to improve the infrastructure of selected pharmacies, drug stores, and
laboratories in order to prepare sites for the initiation of antiretroviral treatment. This
activity consisted primarily of technical assistance, such as preparing renovation plans
for the pharmacies, hospital drug stores, and health centers. The auditors visited one
hospital in the Tigray region that was located in the city of Axum and was one of the
planned hospitals that would start antiretroviral treatment, once drugs were available.
The team met with hospital doctors, who estimated that 50 percent of their patients were
HIV-positive.

Additionally, USAID/Uganda reported that it had undertaken a laboratory assessment in
conjunction with the U.S. Centers for Disease Control and Prevention. This assessment
identified major gaps in laboratory supplies, training, commodities, staffing and services,
as well as a critical need to expand access to quality HIV/AIDS lab services in Uganda.
To address these weaknesses, USAID/Uganda provided training of laboratory staff in 12

14
   T-cell counts are also known as CD4 counts. T-cells are white blood cells, which play an important role
in the immune system. HIV infects and damages T-cells, and the T-cell count reflects how many functional
T-cells are circulating in a patient’s blood. Periodic T-cell count monitoring provides an indication of the
immune system’s strength, which a doctor considers when prescribing HIV medications and prophylactic
antibiotics.




                                                                                                        13
districts, support supervision and follow-up for 9 districts, and provision of basic
laboratory equipment for 52 hospitals and health centers. Through an implementing
partner, laboratories in all the sites providing antiretroviral treatment were upgraded.


Are USAID’s HIV/AIDS activities contributing to the U.S.
Government’s overall Emergency Plan targets?
For five of six missions audited, USAID’s HIV/AIDS activities have contributed
significantly to the accomplishment of the U.S. Government’s care and treatment targets
for fiscal year 2004. In the case of USAID/Haiti, we could not determine the extent of the
Mission’s contribution to the accomplishment of the U.S. Government’s care and
treatment targets.

In the area of prevention, the Office of the U.S. Global AIDS Coordinator is reviewing its
methodology for measuring the impact of prevention activities outside of the prevention
of mother-to-child transmission (PMTCT) activities. Since non-PMTCT targets comprise
a significant majority of the U.S. Government prevention targets,15 we could not
determine the extent of USAID’s HIV/AIDS prevention contributions to the prevention
targets.

All six mission-level audit reports included findings related to this objective. Specifically,

•    USAID/Ethiopia’s activities have contributed significantly to accomplishment of the
     U.S. Government’s care and treatment targets, but PMTCT-prevented infections fell
     short of the target. The audit noted findings related to this objective concerning the
     request that USAID’s Regional Economic Development Services Office for East and
     Southern Africa fund activities in Djibouti; the funding of future care targets; the
     coordination of partner efforts; the need for partners to develop strategies for
     sustainable activities; and the incorporation of nutritional assistance.

•    USAID/Rwanda contributed significantly to accomplishment of the U.S.
     Government’s care and treatment targets. The audit mentioned one finding which
     dealt with the need to ensure data quality.

•    USAID/Kenya has contributed significantly to accomplishment of the U.S.
     Government’s care and treatment targets for fiscal year 2004. The audit report
     included three findings related to this objective concerning the need for partners to
     develop strategies for sustainable activities and for monitoring patients on
     antiretroviral drugs; and the incorporation of nutritional assistance.



15
   This statement is based from the prevention targets for the two missions that had fiscal year 2004
prevention targets, USAID/Ethiopia and USAID/Kenya. USAID/Ethiopia’s prevention targets were 58,000
non-PMTCT infections and 3,500 infections, while USAID/Kenya’s prevention targets were 27,500 non-
PMTCT infections and 2,500 infections. USAID/Zambia and USAID/Uganda had not established fiscal
year 2004 prevention targets, and the audit reports for USAID/Rwanda and USAID/Haiti did not provide
prevention targets due to other reasons.




                                                                                                  14
•    While USAID/Zambia is contributing significantly to targets established for care, it is
     contributing at a lesser extent to the treatment targets. The audit cited one finding
     related to this objective, which dealt with the need for partners to develop strategies
     for sustainable activities.

•    Although USAID/Haiti’s care and treatment activities contributed to the U.S.
     Government’s prevention targets, we could not determine the extent to which this
     was the case. In Haiti, the U.S. Government tracks results at the country team level
     and not at the implementing agency level. Therefore, isolating USAID/Haiti's
     contribution to the U.S Government’s Emergency Plan achievements at an individual
     activity level was not possible without redirecting considerable effort and resources
     away from the Emergency Plan team's other implementation activities. The audit
     report included three findings related to this objective concerning the pressure for
     immediate results, lack of an implementation plan, sustainability, marking protocols,
     Emergency Plan fiscal year confusion, and indicator overload.

•    USAID/Uganda played a critical role in contributing to the overall reported results for
     the U.S. Government’s Emergency Plan in Uganda. The audit reported no findings
     related to this objective.

The following sections summarize selected activities that illustrate how USAID HIV/AIDS
activities are contributing to the U.S. Government targets.

Prevention

The figures for infections averted for non-PMTCT activities have not been computed.
The Office of the U.S. Global AIDS Coordinator is reviewing its methodology for
measuring the impact of prevention activities outside of PMTCT. Since the Office of the
U.S. Global AIDS Coordinator has not yet completed its review,16 and non-PMTCT
targets are a significant majority of the U.S. Government prevention targets, we could
not determine the extent of USAID’s HIV/AIDS prevention contributions to the prevention
targets.

Even though it was not possible to determine the extent of USAID’s contribution to
prevention targets, USAID played a vital role in contributing to the total results for
activities designed to avert infections. For example, Embassy Kampala, Uganda
reported 308,730 individuals receiving voluntary counseling and testing, out of which
USAID/Uganda reported 268,607, or 87 percent of the total.               For PMTCT,
USAID/Uganda’s reported contribution was 5,905 individuals receiving a complete
course of antiretroviral prophylaxis out of a total of 5,948, or 99 percent of the total
results. Similarly, USAID/Zambia contributed to the achievement of the target by
providing 12,302 pregnant women with a complete course of antiretroviral prophylaxis in
a PMTCT setting, representing 96 percent of the overall Embassy Lusaka, Zambia
results.



16
  The Office of the U.S. Global AIDS Coordinator stated that the earliest date it can compute infections
averted with sufficient data is at the end of calendar year 2005.




                                                                                                     15
In the future, meeting PMTCT targets might be increasingly challenging due to the rapid
increase in targets. For example, Embassy Nairobi, Kenya PMTCT target triples from
2,500 in fiscal year 2004 to 7,500 in fiscal year 2006, and increases to a total of 12,500
(or 37,500 cumulatively) by 2008. Embassy Addis Ababa, Ethiopia PMTCT targets
increase to 10,000 in fiscal year 2005 and 44,000 at the end of the Emergency Plan
(2008). Additionally, if the HIV test kits supply chain problems (addressed by the audits
of USAID/Kenya and USAID/Uganda but not necessarily limited to those two countries)
are not solved, the HIV testing of pregnant women will be reduced, ultimately reducing
the number of women to be offered a full course of nevirapine.

Care

USAID’s HIV/AIDS activities have contributed significantly to the accomplishment of the
U.S. Government’s care targets for fiscal year 2004. For example, USAID/Ethiopia’s
care activities are making a major contribution towards Embassy Addis Ababa care
targets. USAID contributed 94 percent of the Emergency Plan results reported for
palliative care, and 100 percent of the results for both orphans and vulnerable children,
and voluntary counseling and testing. As of September 30, 2004,17 USAID had already
achieved 45 percent of the U.S. Government targets for palliative care, 150 percent for
orphans and vulnerable children, and 88 percent for voluntary counseling and testing.

USAID/Rwanda’s HIV/AIDS activities contributed 68 percent of Embassy Kigali’s
palliative care targets, which includes care/basic health care and tuberculosis care and
treatment in an HIV palliative-care setting. Also, USAID/Rwanda contributed 100
percent of Embassy Kigali’s targets for both orphans and vulnerable children, and
voluntary counseling and testing.

While the U.S. Government was on the way to achieving the fiscal year 2004 Emergency
Plan care targets, targets are increasing substantially over the remaining years of the
Emergency Plan. In Kenya, the U.S. Government palliative care target will increase to
90,000 for 2005 and to 120,000 for 2006. The orphans and vulnerable children target
will also increase to 190,000 for 2005 and to 287,000 to 2006.                Similarly,
USAID/Ethiopia’s care partners were concerned about meeting fiscal year 2005 targets,
since the target number of people receiving care and support was expected to increase
from 92,000 in fiscal year 2004 to 213,000 in fiscal year 2005.

Treatment

USAID’s HIV/AIDS activities have contributed significantly to the accomplishment of U.S.
Government’s treatment targets for fiscal year 2004. In Haiti, 15 antiretroviral sites had
been established by the U.S. Centers for Disease Control and Prevention and USAID by
March 2005, and more than 3,900 patients including 212 pregnant women had received
antiretroviral therapy services. Despite a drug supply crisis, the target of treating 4,000
patients by June 2005 was reached. Also, in Uganda, the U.S. Government target was
to provide 24,410 individuals with antiretroviral drugs.         USAID/Uganda reported

17
   As the Emergency Plan fiscal 2004 year ended March 31, 2005 for Embassy Addis Ababa, these
achievements were significant, since they were substantially achieved with six months remaining for their
scheduled completion.




                                                                                                      16
providing antiretroviral treatment to 21,583 patients, for a total contribution of 88 percent
of the target. Embassy Kampala reported 26,415 patients, which exceeded the target.

Only drugs approved by the U.S. Food and Drug Administration (FDA) can be
purchased18 for antiretroviral treatment. Since FDA-approved drugs are higher-priced
than non-FDA approved drugs, this requirement effectively results in less people being
treated. In May 2004, the U.S. Government established an expedited process for
reviewing antiretroviral drugs through the FDA. This process anticipated a six-week
review from the time a completed application is received. Since then, the FDA has
worked with multiple companies from Africa, Asia, and the Caribbean, providing
technical support and guidance for the preparation of applications for drug approval. As
of July 2005, the FDA has approved or tentatively19 approved at least seven drugs for
Emergency Plan purchases. However, the long-term Emergency Plan treatment targets
continue to be at risk unless drug prices fall dramatically or additional manufacturers
(outside the US) receive FDA-approvals, which would then allow countries to purchase
less expensive antiretroviral drugs in large quantities.

A second issue related to purchasing only FDA-approved drugs is that Emergency Plan
countries rely on a limited number of manufacturers to meet the increasing demand for
antiretroviral drugs, thereby jeopardizing future targets if the drug manufacturers cannot
meet the increasing demand. For example, USAID/Kenya was told by a non-U.S.
pharmaceutical company that it was experiencing shortages of branded antiretroviral
drugs. The company recommended that available inventories be used to treat current
patients and that enrollment of new patients be deferred until the drug supply improves.
The issue related to the limited number of manufacturers should be mitigated by the
expedited FDA process described in the prior paragraph.

Other challenges include the sustainability of USAID activities and the provision of food
and nutritional products. These issues are discussed in detail below.

Partners Should Develop Strategies
For Sustainable Activities
Summary: Sustainability is a fundamental concept in development. Nevertheless,
since there was no Office of the U.S. Global AIDS Coordinator policy, USAID has not
deliberately planned sustainability into all of its Emergency Plan activities. As a
result, the benefits of those activities may well not extend beyond the completion of
the activities.

The importance of sustainability is recognized in the Office of the U.S. Global AIDS
Coordinator’s five-year strategy for the Emergency Plan. The President’s Emergency

18
  Prior to December 2004, only U.S.-manufactured antiretroviral drugs could be purchased under the
Emergency Plan.
19
  Tentative FDA approval means that the product meets all of FDA's quality, safety and efficacy standards,
but existing patents and/or exclusivity prevent marketing of the product in the U.S. Tentative approval
makes a drug available for consideration for purchase and use outside the United States under the
President's Emergency Plan.




                                                                                                      17
Plan seeks to develop sustainable national programs in each country for prevention,
care and treatment. By definition, sustainable development activities continue providing
benefits beyond the timeframe in which donor funding is received. On the other hand,
the benefits of non-sustainable development activities do not necessarily continue
beyond the five years covered by the plan.

Sustainability has not been planned for all of USAID’s Emergency Plan activities, since
the Office of the U.S. Global AIDS Coordinator did not require partners to incorporate
sustainability into their projects. Sustainability concerns have already been voiced by
both mission and foreign government officials. For example:

   •   USAID/Zambia acknowledged that the costs of tests kits and antiretroviral drugs
       necessary to meet the Emergency Plan targets are enormous and external
       support will be required beyond the end of the Emergency Plan. Also, with the
       continual change in global protocols for prevention, care and treatment, skills and
       training at all levels will need to be updated beyond the year 2009. Zambian
       Ministry of Health officials stated that the government would not be able to carry
       on the treatment program without external funding. The government is reportedly
       developing an investment plan to assist in the future purchasing of drugs.

   •   In Haiti, the consensus was that antiretroviral therapy is not sustainable without
       outside assistance. Haiti is the poorest country in the Western Hemisphere, and
       the patients cannot begin to afford to pay for antiretroviral therapy. Virtually all
       the antiretroviral therapy being provided in Haiti is provided by foreign
       governments and organizations. Given the depth of poverty in Haiti, it is
       unrealistic to expect large-scale antiretroviral therapy to continue without outside
       assistance.

   •   USAID/Ethiopia acknowledged that some program elements, such as the
       procurement and provision of antiretroviral treatment, cannot be sustained
       without donor assistance.

Despite the lack of an Office of the U.S. Global AIDS Coordinator policy on
sustainability, some USAID programs incorporated sustainability. For example:

   •   A community center in the Western Province of Kenya had a program to teach
       HIV/AIDS orphans vocational skills so that they will be able to support
       themselves in the future. While this was a good example of how sustainability
       had been built into an activity, other Emergency Plan activities lacked such
       features. As a result, the benefits of those activities may not extend beyond the
       completion of the activities.

   •   In Zambia, one project is providing technical assistance to two large companies
       that will enable the companies to develop policies and workplace programs
       focusing on the prevention, care, support and treatment of HIV/AIDS. With the
       activities intended to reach over 100,000 employees and their family members,
       the program also presents an opportunity to reach beyond the companies into
       the communities to strengthen existing services.




                                                                                        18
     •   USAID/Zambia also addressed sustainability in its development of criteria for the
         selection of organizations to implement Emergency Plan programs.
         Organizations seeking USAID funding for various types of the Emergency Plan
         activities were required to address capacity building in their applications. For
         example, the Request for Applications for programs focusing on palliative care of
         persons with HIV/AIDS specified that these programs “will implement measures
         to build up numbers and competencies for decision making among Zambian staff
         at all levels … so that Zambians will increasingly be in a position to take senior
         executive management and technical roles, authorities and responsibilities for
         HIV/AIDS prevention and mitigation.” Similar language was included in the
         Request for Applications for programs in multi-sectoral support, social marketing,
         strengthening the health systems and improving HIV/AIDS service delivery.

USAID is currently considering a draft policy addressing sustainability that would be
included in its Emergency Plan contracts, grants and cooperative agreements. This
policy—which requires the building of institutional capacity and the development of exit
strategies—has already been approved by the Office of the U.S. Global AIDS
Coordinator and is awaiting USAID approval before being issued as a USAID Acquisition
and Assistance Policy Directive.20 Since the Directive is expected in the near future, we
are not making a recommendation.

Funding for Nutrition Interventions
Needs to Increase
In the Emergency Plan legislation, Congress recognized the importance of good
nutrition, noting that healthy and nutritious foods for individuals living with HIV/AIDS, as
well as for households caring for children affected by HIV/AIDS are an important
complement to HIV/AIDS treatment. Among the countries audited, food was often cited
by people living with and affected by HIV/AIDS as their greatest and most urgent need.
However, except in limited programs or circumstances,21 most USAID missions did not
use Emergency Plan funds for nutrition and food-related interventions due to the strong
emphasis on the provision of antiretroviral drugs in fiscal year 2004. Lack of food and
nutrition security for individuals infected or affected by HIV/AIDS, including orphans and
vulnerable children, may diminish the effectiveness of all three components of the
Emergency Plan—prevention, care and treatment.




20
   Even if the sustainability policy is implemented in each focus country, this does not necessarily imply
that Emergency Plan activities will remain sustainable over the long term, as there are many other factors
(such as economic, environmental or others) external to the Emergency Plan that can materially affect the
sustainability of Emergency Plan activities.
21
   For example, USAID/Zambia provided food supplements in fiscal year 2004, but only through one of its
partners, Catholic Relief Services. USAID/Rwanda did not purchase food during fiscal year 2004,
although its partners are developing guidelines and performing nutritional research. USAID/Uganda is
providing short-term food security for orphans, and nutritional support under palliative care. USAID/Haiti
purchased some food for palliative care, and one of its partners co-located PMTCT activities with Title II
food security activities.




                                                                                                      19
Some missions are increasing their food and nutritional product purchases. For
example, USAID/Kenya, in conjunction with INSTA Products, a Kenyan company,
developed INSTA mix, a nutritional supplement designed specifically for adults with
HIV/AIDS.22 USAID/Kenya’s fiscal year 2005 budget contained $500,000 for INSTA mix,
but this will only help approximately 6,500 people. Since the Mission estimated that 50
percent of antiretroviral patients need nutritional supplementation, the auditors
calculated that approximately 22,500 adults will need nutritional supplements (half of the
fiscal year 2005 target)—leaving a 16,000 person shortfall.           Without nutritional
supplementation, malnourished patients will not fully benefit from treatment due to the
toxicity of antiretroviral drugs, compromising USAID’s ability to meet the U.S.
Government’s treatment targets. This shortfall increases when individuals infected or
affected by HIV/AIDS, including orphans and vulnerable children, are added to those
individuals taking antiretroviral drugs.

USAID’s Office of HIV/AIDS commented that nutrition is more than the delivery of food,
and that USAID’s comparative advantage has long been in nutrition programming. A
prime example provided is the use of vitamin A, where USAID established the programs,
and other donors provide the vitamin A capsules. For the Emergency Plan, USAID
seeks to leverage funds from sources such as Title II (Public Law 480), the U.S.
Department of Agriculture, the United Nations World Food Program, the Global Fund,
and basket funding within countries. Office of HIV/AIDS officials stated that USAID
should have the flexibility to use Emergency Plan funds to buy food for targeted, time-
limited nutrition/food interventions, when programs are not able to obtain food from other
sources.

In April 2005, the Office of the U.S. Global AIDS Coordinator released a draft policy on
the use of Emergency Plan funds to address food and nutrition needs. Since the final
guidance is expected in the near future, we are not making a recommendation.




22
  USAID’s Office of HIV/AIDS noted that this approach has not been evaluated to determine if it is a cost-
effective intervention for these antiretroviral patients.




                                                                                                      20
EVALUATION OF
MANAGEMENT COMMENTS
Office of HIV/AIDS management officials stated they were in full agreement with the two
audit findings on sustainability and nutrition presented in our draft audit report. A policy
on sustainability has been approved by the Office of the U.S. Global AIDS Coordinator
and is awaiting USAID approval before being issued as a USAID Acquisition and
Assistance Policy Directive. Also, while management agrees with the need to have
guidance issued by the Office of the U.S. Global AIDS Coordinator that reflects the
importance of nutrition along with the flexibility to use Emergency Plan funds to buy food
for targeted, time-limited nutrition and food interventions, it is in the Emergency Plan’s
best interest to remain focused on HIV/AIDS prevention, care, and treatment while
leveraging funds from sources such as Title II (Public Law 480), the World Food
Program, U.S. Department of Agriculture, the Global Fund, and/or basket funding within
countries.

We made certain modifications to this report based on comments received from
management officials. For example, we added a footnote to acknowledge the working
conditions that the U.S. government team in Haiti faced in implementing the Emergency
Plan. This report is available to the public at our internet web site.




                                                                                         21
                                                                                       APPENDIX I


SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted audits at six USAID missions in accordance
with U.S. generally accepted government auditing standards. These audits were
designed to answer the following questions: (1) How USAID participated in the
President’s Emergency Plan for AIDS Relief activities, (2) Did USAID partners’ HIV/AIDS
activities progress as expected towards planned outputs in their agreements and
contracts, and (3) Are USAID's HIV/AIDS activities contributing to the overall U.S.
Government’s Emergency Plan targets.

In conducting these audits, we assessed the effectiveness of USAID’s internal controls
with respect to consolidating reporting data to the U.S. Government annual progress
report of its activities through September 30, 2004. We identified internal controls such
as:

       •   USAID’s process for monitoring its partners’ progress and reporting; and

       •   USAID’s partners’ process for compiling regional data to its country-level reports.

This report summarizes the results of audit work conducted both at USAID offices in
Washington, D. C. and at selected overseas USAID missions.23 The audit fieldwork was
conducted from July 2004 through April 2005 in:

       •   Washington, D.C, from July through October 2004 (preliminary fieldwork).

       •   Ethiopia—at the USAID Mission and various Emergency Plan sites within
           Ethiopia and offices in Washington, DC—from November 4, 2004 to January 14,
           2005.

       •   Kenya—at the USAID Mission and various Emergency Plan sites within Kenya
           from March 31 to April 20, 2005.

       •   Zambia—at the USAID Mission and various Emergency Plan sites within Zambia
           from January 24 to February 9, 2005.

       •   Haiti—at the USAID Mission and various Emergency Plan sites within Haiti from
           April 4 to April 29, 2005.

       •   Rwanda—at the USAID Mission and various Emergency Plan sites within
           Rwanda from February 14 to March 3, 2005.




23
     See Appendix IV for a list of audit reports issued during this worldwide audit.




                                                                                               22
                                                                                              APPENDIX I
     •   Uganda—at the USAID Mission and various Emergency Plan sites within
         Uganda from April 4 to April 22, 2005.

Methodology
To answer audit objective one, we reviewed USAID’s Country Operational Plan,24
interviewed mission and partner personnel, and reviewed other pertinent documentation.
To answer audit objective two, we interviewed responsible mission officials and in-country
partners, and reviewed quarterly progress reports to determine progress towards outputs.
To answer audit objective three, we reviewed the Emergency Plan team’s annual report
and reported targets, and compared these to individual partner reports to determine their
role in achievement of these targets. We conducted site visits to partners and
beneficiaries involved in prevention, care, and treatment and observed facilities and
operations.

A materiality threshold was not established for objective one given the descriptive nature
of the objective. For audit objectives two and three, we considered that the objective
was answered: (1) positively, if all six mission-level reports had a positive answer to the
same objective, (2) with qualifications, if five mission-level reports had a positive answer
to the same objective, and (3) negatively, if four or less mission-level reports had a
positive answer to the same objective.




24
   The Country Operational Plan is the annual U.S. Government-wide operational plan for a given country.
It lists the country targets for 2004-2008, and identifies partners and their objectives, activities, agency and
budget amounts.




                                                                                                            23
                                                                               APPENDIX II



MANAGEMENT COMMENTS
MEMORANDUM

TO:                IG/A/PA, Steven H. Bernstein, Director

FROM:              GH/OHA, Roxana Rogers, Deputy Director /s/

SUBJECT:           Management Comments on the draft Audit of USAID’s
                   Implementation of the President’s Emergency Plan for AIDS Relief
                   (Report No. 9-000-05-00X-P)


       This memorandum transmits the Office of HIV/AIDS’ response to the draft audit
report titled “Audit of USAID’s Implementation of the President’s Emergency Plan for
AIDS Relief” (Report No. 9-000-05-00X-P), dated September 13, 2005.

       We realize that the six audits and this summary report were a result of a very labor-
intensive and time-consuming effort for your auditors, Mission staff, Office of
HIV/AIDS (OHA) staff, and regional bureau staff. We have appreciated your staff’s
openness and collaborative working style throughout the audit process.

      Although we provided extensive comments to your draft report, we have reviewed
the two audit findings on sustainability and nutrition and are in full agreement with them.
The two findings/problem areas you cite and the rationale you provide for not making
recommendations include:

   • USAID has not deliberately planned sustainability into all of its Emergency Plan
     activities. Sustainability was not an Office of the U.S. Global AIDS Coordinator
     (O/GAC) requirement. As a result, the benefits of those activities may well not
     extend beyond the completion of the activities.
        o USAID is currently considering a draft policy addressing sustainability that
            would be included in its Emergency Plan contracts, grants and cooperative
            agreements. This policy -- which requires the building of institutional
            capacity and the development of exit strategies -- has already been approved
            by O/GAC and is awaiting USAID approval before being issued as a USAID
            Acquisition and Assistance Policy Directive. Therefore, we are not making
            a recommendation.

                                                                                         24
                                                                              APPENDIX II



   • In the Emergency Plan legislation, Congress recognized the importance of good
     nutrition. Additionally, food is often cited by people living with and affected by
     HIV/AIDS as their greatest and most urgent need. However, except in limited
     programs or circumstances, most USAID missions did not use Emergency Plan
     funds for such interventions. Lack of food and nutrition security for individuals
     infected or affected by HIV/AIDS, including orphans and vulnerable children, may
     diminish the effectiveness of all three components of the Emergency Plan --
     prevention, care and treatment.

         o In April 2005, O/GAC released a draft policy on the use of Emergency Plan
           funds to address food and nutrition needs. Since the final guidance is
           expected in the near future, we are not making a recommendation.

       OHA agrees with the audit report that it is important to have final guidance issued
by O/GAC that reflects the importance of nutrition along with the flexibility to use
Emergency Plan funds to buy food for targeted, time limited nutrition and food
interventions, especially when programs are not able to obtain food or nutrition through
Title II (Public Law 480), the World Food Programme (WFP), U.S. Department of
Agriculture, the Global Fund, and/or basket funding within countries. However, it is in
the Emergency Plan’s best interest to remain focused on HIV/AIDS prevention, care, and
treatment while leveraging funds from sources cited above.

       In the audit report, it states that the USAID/Haiti Mission did not meet the planned
outputs for a significant percentage of activities. We disagree with this statement. The
audit report states that of the HIV/AIDS activities evaluated, almost 70 percent were
meeting or exceeding outputs. The issue for the USAID/Haiti Mission was that 44
percent of all HIV/AIDS activities could not be evaluated since planned outputs were not
established by the U.S. government team. This is a direct impact of the security and
working environment in Haiti during FY 2004 and 2005 which included chronic
instability and violence which had a major impact on the ability of the U.S. government
team and its partners to accomplish even basic tasks. Further, because of the insecurity in
country, American staff from USAID and the Centers for Disease Control and Prevention
(CDC) had to be evacuated from Haiti for months at a time in both 2004 and 2005. The
audit report does not acknowledge the working conditions that the U.S. government team
faced over the last 18 months.

       If your office is planning any subsequent audits of the Emergency Plan, we
strongly recommend that the USAID/Washington audit team involved in these past six
audits conduct any future audits. It is imperative that the auditors are experienced and

                                                                                           25
                                                                            APPENDIX II


knowledgeable about how the Emergency Plan is structured and operates. The
Emergency Plan is currently undergoing a series of audits and evaluations from the
Institute of Medicine, the Office of Management and Budget, the Government
Accountability Office, and the Department of State’s Office of Inspector General, please
see attached list. We encourage your office to share your methodology and audit findings
with the Inspector General offices of the other Emergency Plan implementing agencies to
avoid duplicative work, since these audits and evaluations have put additional stress and
strain on both the U.S. government Emergency Plan Washington and field staff.

       As you know, the Emergency Plan is very complex and unlike other U.S.
government programs. At the direction of the U.S. Global AIDS Coordinator, the
Emergency Plan is a closely integrated U.S. government effort involving the Department
of State, USAID, the Department of Health and Human Services and others. This
integration happens both here in Washington and in-country. The USG in-country teams
are responsible for ensuring a unified strategy and voice in working with host
governments and local nongovernmental partners. The in-country teams are also
responsible for ensuring coordination among other international donors and the Global
Fund, and meet regularly with other bilateral and multilateral donors, the relevant host
Government offices, and other implementing partners. This coordination on the ground
avoids duplication of assistance efforts, eliminates program redundancies, and promotes
country program synergies.

      In closing, the Office of HIV/AIDS would again like to express its appreciation for
the manner in which these audits were conducted and the usefulness of the findings
contained therein.


Attachments: Audits and Evaluations of the Emergency Plan




                                                                                       26
                                                                               APPENDIX III


                    Summary of Audit Recommendations by Audit Objective

Recommendations                        Ethiopia   Rwanda    Kenya   Zambia   Haiti   Uganda

Audit Objective One (How has USAID participated in the Emergency Plan)
No recommendations                       X           X       X       X        X        X

Audit Objective Two (USAID partners’ activities progressing as expected)
No recommendations                           X
Formulate and implement a plan to                     9         9
increase coordination and knowledge-
sharing with and among its partners
Develop a monitoring plan to strengthen                         9              9
the monitoring of partners’ progress
Develop and implement a new                                     9
procurement and distribution system for
HIV test kits
Develop a plan to identify alternate                                                   9
sources for HIV test kits in case of
unexpected supply disruptions
Require that USAID activity managers                  9
maintain documentation of site visits of
recipients
Explore options to reduce the strain on                                  9
human resources to ensure adequate
oversight of activities
Schedule training for consortium                                         9
partners in accurately reporting results
and maintaining documentation
Assess the data quality for a prevention                                               9
activity to determine the remedial action
necessary to ensure data quality
Revise targets and update the                                                          9
Performance Management Plan
Determine whether to implement a                                               9
specific drug management software
Include clearly defined planned outputs,                                       9
with completion dates, for all activities in
the partners’ work plans
Develop a table or annex template that                                         9
facilitates performance reporting
Coordinate with Single Audit Act                                               9
auditors to review audit coverage




                                                                                           27
                                                                                 APPENDIX III


Recommendations                        Ethiopia   Rwanda    Kenya   Zambia    Haiti   Uganda

Audit Objective Three (USAID’s activities contributing towards U.S. Government targets)
No recommendations                                                                        X
Require that USAID partners develop        9                    9       9
strategies for the sustainability of their
activities
Coordinate with the U.S Government         9                    9
Emergency Plan team to request
funding for nutritional assistance
Request that a regional USAID office       9
fund HIV/AIDS-prevention activities
along the Djibouti side of the border
Engage the U.S. Government                 9
Emergency Plan team to secure
additional funds for care targets
Hold periodic information-sharing          9
sessions with partners to exchange
various methodologies
Assess the quality of the quantitative                 9
data provided by USAID’s implementing
partners and document the assessment
Recommend to the Emergency Plan                                                  9
team not to open antiretroviral therapy
centers until adequate drug supplies are
available
Recommend to the Emergency Plan                                                  9
team to develop an implementation plan
for antiretroviral sites




                                                                                              28
                                                                        APPENDIX IV


               Audit Recommendations by Mission Audited

Mission    Audit Objective Two (Activities      Audit Objective Three (Activities
             Progressing as Expected)              Contributing Toward U.S.
                                                      Government Targets)
Ethiopia   No recommendations                    • Request that USAID’s
                                                     Regional Economic
                                                     Development Services Office
                                                     for East and Southern Africa
                                                     fund HIV/AIDS-prevention
                                                     activities along the Djibouti
                                                     side of the Djibouti-Addis
                                                     Ababa High-Risk Corridor

                                                 •   Engage the U.S. Government
                                                     Emergency Plan team to
                                                     secure the additional funds
                                                     necessary to attain fiscal year
                                                     2005 care targets

                                                 •   Leverage its scarce resources
                                                     by coordinating with the other
                                                     Emergency Plan agencies to
                                                     hold periodic information-
                                                     sharing sessions for partners
                                                     to exchange methodologies for
                                                     decreasing donor dependency,
                                                     achieving program
                                                     consistency, and avoiding
                                                     duplication of effort

                                                 •   Require that its partners
                                                     develop strategies for the
                                                     sustainability of their activities

                                                 •   Coordinate with the U.S.
                                                     Government country team to
                                                     request Emergency Plan
                                                     funding for food assistance in
                                                     connection with treatment
                                                     programs included in the
                                                     country operational plan for
                                                     Ethiopia

Rwanda     •    Prepare a plan requiring         •   Assess the quality of the
                periodic forums of all               quantitative data provided by
                Emergency Plan partners to           its implementing partners and
                exchange ideas and learn             document the assessment.
                from each other’s experiences



                                                                                     29
                                                                        APPENDIX IV

Mission   Audit Objective Two (Activities        Audit Objective Three (Activities
            Progressing as Expected)                Contributing Toward U.S.
                                                      Government Targets)

          •   Develop Mission-specific
              procedures requiring that site
              visits of recipients be
              documented and maintained
              in activity managers’ files


Kenya     •   Develop a monitoring plan—          •   Require that its
              including field site visits and         partners develop
              milestones—based on a risk              strategies for the
              assessment of its partners and          sustainability of their
              their activities                        Emergency Plan
                                                      activities, including the
          •   (a) Formulate a strategy to             incorporation of
              ensure more effective                   institutional capacity-
              coordination and knowledge-             building activities and
              sharing with and among its              the development of exit
              partners, (b) develop an action         plans.
              plan—including targets and
              milestones—to enact its             •   Coordinate with the U.S
              strategy, and (c) implement its         Government country team to
              action plan.                            request Emergency Plan
                                                      funding for nutritional
          •   (a) Assess the current                  assistance to be provided to
              procurement and distribution            malnourished patients
              system for HIV test kits,               receiving antiretroviral
              (b) devise a new procurement            treatment that are at greatest
              and distribution strategy that          risk.
              implements the controls
              necessary to ensure their
              timely distribution, (c) develop
              a plan for implementing that
              strategy, including targets and
              milestones, and (d) implement
              the plan.
Zambia    •   Engage the U.S. Government          •   Require that its partners
              Emergency Plan team to                  develop strategies for the
              explore options or innovative           sustainability of their
              approaches to reduce the                Emergency Plan activities,
              strain on human resources to            including the incorporation of
              ensure adequate oversight of            institutional capacity building
              activities.                             activities and the development
                                                      of exit plans.
          •   Schedule training for
              consortium partners in
              accurately reporting results



                                                                                   30
                                                                      APPENDIX IV

Mission   Audit Objective Two (Activities        Audit Objective Three (Activities
            Progressing as Expected)                Contributing Toward U.S.
                                                      Government Targets)
              and maintaining adequate
              supporting documentation
Haiti     •   Make a determination as to          •   Recommend to the
              whether or not to implement             Emergency Plan team that
              the drug management                     new antiretroviral therapy
              software provided by Rational           centers not be opened unless
              Pharmaceutical Management               adequate drugs and other
              Plus, and (b) if it decides to          supplies are available.
              implement the software, set a
              schedule for the implementing       •   Recommend to the
              the software and a plan for             Emergency Plan team that it
              providing support to the users          develop an implementation
              of the software.                        plan that takes into account
                                                      all the key participants,
          •   Include clearly defined                 identifies risks and
              planned outputs, with                   constraints, and puts forward
              completion dates, for all               a complete program
              activities in the partners’ work        implementation timeline
              plans.

          •   Develop and disseminate to
              partner organizations a table
              or annex template that
              facilitates performance
              reporting and includes clearly-
              defined progress indicators;
              (b) provide partner
              organizations with training
              such that the partners are
              able to accurately report on
              their performance, and (c)
              recommend to the Emergency
              Plan team that this be done
              for all Emergency Plan
              partner organizations.

          •   Develop a monitoring and
              evaluation plan that includes
              evaluating each partner’s
              progress towards meeting
              Emergency Plan objectives
              such that accurate and
              complete program
              implementation information is
              ensured and to facilitate
              timely interventions to
              improve program results, and



                                                                                 31
                                                                     APPENDIX IV

Mission   Audit Objective Two (Activities       Audit Objective Three (Activities
            Progressing as Expected)               Contributing Toward U.S.
                                                     Government Targets)
              (b) recommend to the
              Emergency Plan team that it
              develop a similar monitoring
              and evaluation plan for all
              Emergency Plan partners.

          •   Coordinate with Single Audit
              Act auditors to determine
              whether audit coverage of
              U.S. based organizations if
              sufficient, and if not, arrange
              for additional coverage and/or
              financial reviews.
Uganda    •   Schedule a data-quality           No recommendations
              assessment for the
              performance indicator
              reporting the prevention of
              mother-to-child transmission
              to determine what training
              and technical assistance is
              necessary to ensure data
              quality.

          •   Develop a plan to provide
              implementing partners with
              either individual grant
              authority or other reliable
              sources of HIV/AIDS test kits
              in the event of unexpected
              disruptions in the supply
              chain.

          •   (1) Revise the performance
              targets for its implementing
              partners under Strategic
              Objective No. 8 to take into
              consideration current program
              capabilities and resources,
              and (2) update its
              Performance Management
              Plan to reflect the revised
              targets.




                                                                                32
                                                                         APPENDIX V


                        Worldwide Audit Reports Issued

The following reports were issued as part of the worldwide Emergency Plan audit.
The reports are listed chronologically, and are available on USAID/Office of
Inspector General’s website at http://www.usaid.gov/oig/public/fy05rpts/fy05rpts1.html

Report No. 9-663-05-005-P, Audit of USAID/Ethiopia’s Implementation of the President’s
Emergency Plan for AIDS Relief, March 30, 2005

Report No. 4-696-05-005-P, Audit of USAID/Rwanda’s Implementation of the President’s
Emergency Plan for AIDS Relief, June 10, 2005

Report No. 9-615-05-007-P, Audit of USAID/Kenya’s Implementation of the President’s
Emergency Plan for AIDS Relief, July 21, 2005

Report No. 7-611-05-005-P, Audit of USAID/Zambia’s Implementation of the President’s
Emergency Plan for AIDS Relief, July 27, 2005

Report No. 1-521-05-010-P, Audit of USAID/Haiti’s Implementation of the President’s
Emergency Plan for AIDS Relief, July 29, 2005

Report No. 4-617-05-006-P, Audit of USAID/Uganda’s Implementation of the President’s
Emergency Plan for AIDS Relief, August 1, 2005




                                                                                   33
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
